                              SENSITIVE BUT UNCLASSIFIED




                   UNITED STATES DEPARTMENT OF STATE
               AND THE BROADCASTING BOARD OF GOVERNORS
                               OFFICE OF INSPECTOR GENERAL


ISP-C-13-05                                    Office of Inspections                                January 2013




            Compliance Followup Review of
           Embassy Luxembourg, Luxembourg




IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a co py directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the Department of State or
the Broadcasting Board of Governors, by them or by other agencies of organizations, without prior authorization by
the Inspector General. Public availability of the document will be determined by the Inspector General under the
U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or administrative penalties.




                              SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED



                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2011 by the Council of Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General for the
U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

   •   Policy Implementation: whether policy goals and objectives are being effectively
       achieved; whether U.S. interests are being accurately and effectively represented; and
       whether all elements of an office or mission are being adequately coordinated.

   •   Resource Management: whether resources are being used and managed with maximum
       efficiency, effectiveness, and economy and whether financial transactions and accounts
       are properly conducted, maintained, and reported.

   •   Management Controls: whether the administration of activities and operations meets the
       requirements of applicable laws and regulations; whether internal management controls
       have been instituted to ensure quality of performance and reduce the likelihood of
       mismanagement; whether instance of fraud, waste, or abuse exist; and whether adequate
       steps for detection, correction, and prevention have been taken.

METHODOLOGY

In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate, circulated,
reviewed, and compiled the results of survey instruments; conducted on-site interviews; and
reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                        i
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Harold W. Geisel
                                              Deputy Inspector General




                                       ii
                          SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




                               Table of Contents
Key Judgments                                                      1
Background                                                         2
Evaluation of Compliance                                           3
Public Diplomacy                                                   4
  Grants Administration                                            4
Management                                                         5
  Representational Voucher                                         5
  Bulk Purchase of Wine and Liquor                                 5
List of CFR Recommendations                                        7
List of Informal CFR Recommendations                               8
Principal Officials                                                9
Abbreviations                                                     10
APPENDIX I: Status of 2011 Inspection Recommendations             11
APPENDIX II: Status of 2011 Inspection Informal Recommendations   18




                                    iii
                        SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED




Key Judgments
•   The newly arrived Ambassador was effectively advancing U.S. Government goals and objectives
    for Embassy Luxembourg. The staff was working closely with the Government of Luxembourg
    on issues such as combating illicit financial transactions and seeking Luxembourg’s support for
    key U.S. policy positions in the North Atlantic Treaty Organization (NATO), particularly
    Luxembourg’s military presence in Afghanistan. Rightsizing efforts were under way to relocate
    all staff members to the chancery, estimated to save $500,000 annually in lease costs.

•   Despite efforts by the Ambassador to foster a dialogue with his staff members, some of the
    polarizing effects of the work environment under the previous Chief of Mission still linger at
    Embassy Luxembourg. There is insufficient open communication between locally employed
    (LE) staff and senior management. The LE staff, aware that a rightsizing plan is under
    consideration, correlated rightsizing with downsizing and an impending reduction in LE staff
    positions. The relocation of embassy staff from the annex (which is about one-third empty) to
    the chancery has convinced some LE staff that a reduction in force is imminent. Senior
    management has not yet briefed the LE staff on its plans for rightsizing the embassy.

•   Embassy Luxembourg has complied with all but 1 of the 30 formal and 1 of the 26 informal
    recommendations issued in the 2011 inspection report. The remaining formal
    recommendation relating to the bulk purchase of wine and liquor and the recommendation
    relating to grants management training have been revised and reissued in this report.

•   The 14 formal recommendations and 10 informal recommendations issued in the classified
    annex to the 2011 inspection report were complied with and were closed prior to the
    compliance followup review (CFR).


All findings and recommendations in this report are based on conditions observed during the on-
site review and the standards and policies then in effect. The report does not comment at length
on areas where the Office of Inspector General (OIG) team did not identify problems that need to
be corrected.



The CFR took place in Washington, DC, between September 5 and 24, 2012, and in
Luxembourg, Luxembourg, between September 26 and October 5, 2012. (b) (6)




                                        1
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED




Background
        Despite its small size, the Grand Duchy of Luxembourg plays an influential role within
the European Union and NATO. The embassy works closely with Government of Luxembourg
counterparts on issues such as combating illicit financial transactions, supporting the many major
U.S. corporations with European headquarters in Luxembourg, and seeking Luxembourg’s
support for key U.S. policy positions in NATO, in particular, the Luxembourg military presence
on the ground in Afghanistan.

        The new Ambassador has led his staff through the process of compliance with the
recommendations in the 2011 OIG inspection report. Recognizing his role to improve
communication and morale throughout the embassy, he has opened the official residence to the
staff for community events and is hosting town hall meetings for all embassy staff. He attends
community and recreation functions such as the monthly event hosted by the Marine security
guard detachment. He knows virtually all embassy staff members by name and publicly
acknowledges superior performance. In short, he has taken the steps needed to allow Embassy
Luxembourg to heal its morale problems and refocus staff members on the work at hand.

        The Ambassador came to the embassy from private business. His leadership style is
marked by flexibility and willingness to empower his section chiefs. He is assisted by an
experienced deputy chief of mission (DCM). Embassy staff members report that the Ambassador
is open to alternative suggestions and has made clear that he wants the staff to “watch his back”
by telling him when he asks for anything not allowable in the U.S. Government. He has
developed high-level contacts in Luxembourg and uses them well to advance U.S. Government
goals and objectives for Luxembourg. While not fluent in French, the Ambassador has taken
language classes to improve his ability to converse in French with leading Luxembourgers.

       He has also started a process to rightsize the U.S. Government’s presence on the ground
in Luxembourg—one of the more expensive cities in Europe. His goal is to relocate all embassy
staff members into the chancery; eight are currently housed in the annex. Relocating the staff
would improve communication, strengthen teamwork, and save approximately $500,000
annually in lease costs for the annex. The inspectors believe he is on the right track but urged
him to give the LE staff a chance to air their concerns and provide their input into the process.
The rightsizing process will entail moving more employees into a small chancery already
crowded with people and equipment. Under these circumstances, it is natural for staff to
speculate about the possibility of reductions in force. The inspectors were encouraged by the
Ambassador’s announcement during the followup inspection of a formal ongoing dialogue with
the LE staff. This dialogue will help improve morale and reduce unproductive time lost to
uncertainty and worry about job stability.




                                        2
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED




Evaluation of Compliance
       Embassy Luxembourg has complied with most of the formal and informal
recommendations from the 2011 inspection. This CFR automatically closes all formal and
informal recommendations from the 2011 inspection, but these may be reissued by the CFR, as
appropriate.

        Of the 30 formal recommendations in the 2011 report, 29 were closed before the CFR
and 1 remained open (Recommendation 28). The inspectors confirmed that the last open
recommendation was implemented and is now closed. Recommendation 10 regarding the
inappropriate bulk purchase of wine and liquor was reopened and is revised and reissued as
Informal Recommendation CFR 2. Twenty-eight of the 29 recommendations closed before the
CFR remain closed. There were 26 informal recommendations issued in the inspection report, 25
are closed by this CFR and 1 (Informal Recommendation 2) relating to grants management
training is revised and reissued as Recommendation CFR 2.

        There were 14 formal recommendations issued in the classified annex to the 2011
inspection report. The inspectors confirmed that all recommendations were closed during the
compliance phase and remain closed. The 10 informal recommendations issued in the classified
annex were implemented and are therefore closed by this report.

        The complete status of the formal and informal recommendations issued in the 2011
inspection report is provided in Appendix I and Appendix II of this CFR report.




                                       3
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED




Public Diplomacy
Grants Administration

        The embassy has been without consistent leadership in the public affairs section since
2011 when the public affairs officer (PAO) curtailed. There was a gap of several months before
the arrival of another PAO, who curtailed in June 2012 after 3 months. Subsequently, the DCM
was acting PAO with the political/economic officer as grants officer, but the political/economic
officer also curtailed his tour of duty in Luxembourg in summer 2012. The public affairs LE staff
(consisting of two part-time employees and one full-time employee) has done an admirable job
maintaining the public affairs program and supporting embassy outreach efforts. The LE staff
has not received public diplomacy or grants management training. Some grants documents were
left unsigned in anticipation of the arrival of a permanent PAO, but when that PAO left after 3
months, the grants were still unsigned. The political/economic officer departed post leaving
another grant document unsigned. A new PAO arrived in September 2012. She has begun
working with the Office of the Procurement Executive to follow the correct procedures to
execute the unsigned grants agreements.

Recommendation CFR 1: Embassy Luxembourg, in coordination with the Bureau of
Administration, should execute all outstanding grants agreements and include full documentation
of each case in each individual grants file. (Action: Embassy Luxembourg, in coordination with
A)

        Informal Recommendation 2 in the 2011 inspection report recommended that Embassy
Luxembourg request the visit of an experienced LE staff member from a neighboring post to
train the public affairs staff in grants management and organize the grants files. In 2011, a LE
staff member from The Hague visited, but only trained the PAO, not the LE staff. The informal
recommendation has been revised and reissued as a formal recommendation. The PAO and her
LE staff have already begun selecting relevant online courses.

Recommendation CFR 2: Embassy Luxembourg should provide grants management training
to the locally employed staff in the public affairs section. (Action: Embassy Luxembourg)




                                        4
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED




Management
Representational Voucher

        The inspectors reviewed representational vouchers processed by Embassy Luxembourg
in the year that the new Ambassador has been at the embassy. The majority have been properly
documented and justified with one exception involving an unusual request for reimbursement of
approximately $500 for ceremonial attire for the general services officer to participate in the
Ambassador’s presentation of credentials ceremony. While Department of State Standardized
Regulations section 320 g. allows for the use of representational funds to reimburse an officer for
the costs of rental, or in certain cases, the purchase of attire required when accompanying the
Ambassador in presenting his credentials to the head of state, such reimbursement would
generally be restricted to those officers who were actually required to participate in a ceremonial
event. The embassy failed to document the reason this officer was required to attend the
ceremony. In its response to the draft report, the Bureau of the Comptroller and Global Financial
Services (CGFS) concurred with OIG’s finding that the officer should not have been reimbursed
for the formal wear and stated that Embassy Luxembourg “should create an appropriate accounts
receivable until any owed funds are received.”

       Informal CFR Recommendation 1: Embassy Luxembourg should create an accounts
       receivable and collect the repayment of voucher number 2522SRB0151 for the
       inappropriate reimbursement from representational funds for purchase of formal wear by
       the general services officer.

Bulk Purchase of Wine and Liquor

        In the 2011 inspection report, OIG recommended (Recommendation 10) that Embassy
Luxembourg submit a report of investigation to CGFS relating to a possible unauthorized bulk
purchase of 40 cases of California wines and 2 cases of bourbon totaling more than $3,400 using
excess year-end funds in violation of 3 FAM 3246.3-6 b., that forbids the use of excess year-end
funds to purchase wines and other items that will not be used in the current fiscal year. In March
2011, CGFS reported to OIG that it had received the report of investigation from Embassy
Luxembourg and concurred with OIG’s recommendation (see Recommendation 10). CGFS
further noted that it had submitted the embassy report to the Committee of Inquiry Into Fiscal
Irregularities. In response to the draft of this CFR report, CGFS reported to OIG that it has found
“there is no reportable fiscal irregularity and that the wine does not require immediate disposal if
the wine does not exceed what would be consumed in a single year.” The current embassy
management determined that the remaining wines are not consumable and that Luxembourgers,
other visitors, and embassy staff do not drink bourbon. The remaining inventory has been stored
in the chief of mission residence since its purchase. Embassy Luxembourg needs to give serious
consideration on how to legally dispose of this inventory.




                                        5
                           SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED



Informal CFR Recommendation 2: Embassy Luxembourg should coordinate with the
Bureau of Administration and the Bureau of the Comptroller and Global Financial
Services to properly dispose of its inventory of wine and liquor purchased with year-end
FY 2010 funds, which the embassy will not use for representational or other events.




                                6
                   SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED




List of CFR Recommendations
Recommendation CFR 1: Embassy Luxembourg, in coordination with the Bureau of
Administration, should execute all outstanding grants agreements and include full documentation
of each case in each individual grants file. (Action: Embassy Luxembourg, in coordination with
A)

Recommendation CFR 2: Embassy Luxembourg should provide grants management training
to the locally employed staff in the public affairs section. (Action: Embassy Luxembourg)




                                       7
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED




List of Informal CFR Recommendations
        Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any subsequent
OIG inspection or on-site compliance review will assess the mission’s progress in implementing
the informal recommendations.

Informal CFR Recommendation 1: Embassy Luxembourg should create an accounts
receivable and collect the repayment of voucher number 2522SRB0151 for the inappropriate
reimbursement from representational funds for purchase of formal wear by the general services
officer.

Informal CFR Recommendation 2: Embassy Luxembourg should coordinate with the Bureau
of Administration and the Bureau of the Comptroller and Global Financial Services to properly
dispose of its inventory of wine and liquor purchased with year-end FY 2010 funds, which the
embassy will not use for representational or other events.




                                       8
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED




Principal Officials
                                                        Name       Arrival Date

Ambassador                                   Robert A. Mandell     October 2011
Deputy Chief of Mission                        David R. Fetter       April 2011
Chiefs of Sections:
  Management                                    Kevin B. Crisp      August 2011
  Consular                                     Carla T. Nadeau      August 2010
  Political/Economic                                    Vacant
  Political-Military                           Steve R. Nugent        April 2012
  Public Affairs                                 Katya Thomas    September 2012
  Regional Security                           Mark T. Typinski        May 2011




                                       9
                          SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED




Abbreviations

CFR              Compliance followup review

CGFS             Comptroller and Global Financial Services

DCM              Deputy chief of mission

Department       U.S. Department of State

LE               Locally employed

NATO             North Atlantic Treaty Organization

OIG              Office of Inspector General

PAO              Public affairs officer




                            10
                SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED




APPENDIX I: Status of 2011 Inspection Recommendations
Recommendation 1: The Bureau of European and Eurasian Affairs should send a deputy
assistant secretary-level officer to visit Embassy Luxembourg to assist the Ambassador in
developing, with the country team, a revised Mission Strategic and Resource Plan that will
maximize the mission’s resources and focus its productivity and policy advocacy. The results of
this visit should include a memorandum from the Bureau of European and Eurasian Affairs’
Assistant Secretary that details specific management and policy targets that will become part of
the work requirements of the Ambassador for the rating period. (Action: EUR)

       Pre-CFR Status: Closed.

       CFR Findings: The CFR team confirmed implementation of this recommendation.

Recommendation 2: The Bureau of European and Eurasian Affairs, in coordination with the
Bureau of Human Resources and the Foreign Service Institute, should send a team to conduct a
team-building exercise at Embassy Luxembourg aimed at improving internal communication and
creating greater mutual confidence and respect between the Ambassador and mission officers.
(Action: EUR, in coordination with DGHR and FSI)

       Pre-CFR Status: Closed.

       CFR Findings: The CFR team confirmed implementation of this recommendation.

Recommendation 3: The Bureau of European and Eurasian Affairs, in coordination with the
Bureau of Overseas Buildings Operations and the Under Secretary for Management, should
clarify and monitor the Luxembourg Ambassador’s limited role in the repair of the official
residence. (Action: EUR, in coordination with OBO and M)

       Pre-CFR Status: Closed.

       CFR Findings: The CFR team confirmed implementation of this recommendation.

Recommendation 4: Embassy Luxembourg should refine and implement its strategic plan for
public diplomacy, focusing on the policy objectives articulated in its Mission Strategic and
Resource Plan. (Action: Embassy Luxembourg)

       Pre-CFR Status: Closed.

       CFR Findings: The CFR team confirmed implementation of this recommendation.

Recommendation 5: (b) (5)



                                       11
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



(b) (5)



          Pre-CFR Status: Closed.

          CFR Findings: The CFR team confirmed implementation of this recommendation.

Recommendation 6: Embassy Luxembourg should issue a formal policy that explains
Department of State rules and regulations concerning access to employee electronic records and
the circumstances under which embassy management may access these records. (Action:
Embassy Luxembourg)

          Pre-CFR Status: Closed.

          CFR Findings: The CFR team confirmed implementation of this recommendation.

Recommendation 7: Embassy Luxembourg, in coordination with Regional Services Center
Frankfurt, should hold a 1-day off-site for all members of the management section. (Action:
Embassy Luxembourg, in coordination with RSC Frankfurt)

          Pre-CFR Status: Closed.

          CFR Findings: The CFR team confirmed implementation of this recommendation.

Recommendation 8: Embassy Luxembourg should implement procedures to provide all travel
information required by the Department of State whenever the Chief of Mission requests to be
absent from the country. (Action: Embassy Luxembourg)

          Pre-CFR Status: Closed.

          CFR Findings: The CFR team confirmed implementation of this recommendation.

Recommendation 9: Embassy Luxembourg should post the International Cooperative
Administrative Support Services Uniform Service Standards on the embassy’s intranet site and
develop a strategy for supervisors to work with staff to meet these standards. (Action: Embassy
Luxembourg)

          Pre-CFR Status: Closed.

          CFR Findings: The CFR team confirmed implementation of this recommendation.

Recommendation 10: Embassy Luxembourg should report to the Bureau of Resource
Management the fiscal irregularity regarding the advance purchase of wine and liquor, conduct a
full review of the circumstances surrounding the payment, and submit a final report of

                                       12
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED



investigation to the Bureau of Resource Management that includes information on any restitution
obtained. (Action: Embassy Luxembourg, in coordination with RM)

       Pre-CFR Status: Closed.

       CFR Findings: The CFR team confirmed implementation of this recommendation.

Recommendation 11: Embassy Luxembourg should create and implement formal
representation, travel, and training plans that reflect the prioritized needs of sections based on
anticipated outcomes. (Action: Embassy Luxembourg)

       Pre-CFR Status: Closed.

      CFR Findings: The CFR team confirmed acceptable nonimplementation of this
recommendation.

Recommendation 12: Embassy Luxembourg should report to the Bureau of Resource
Management the fiscal irregularity regarding travel to Switzerland to interview potential chief of
mission residence staff, conduct a full review of the circumstances surrounding the payment, and
submit a final report of investigation to the Bureau of Resource Management that includes
information on any restitution obtained. (Action: Embassy Luxembourg, in coordination with
RM)

       Pre-CFR Status: Closed.

       CFR Findings: The CFR team confirmed implementation of this recommendation.

Recommendation 13: Embassy Luxembourg should report to the Bureau of Resource
Management the fiscal irregularity regarding reimbursement for the Ambassador’s queen-size
mattress, conduct a full review of the circumstances surrounding the reimbursement for the said
item, and submit a final report of investigation to the Bureau of Resource Management that
includes information on any restitution obtained. (Action: Embassy Luxembourg, in coordination
with RM)

       Pre-CFR Status: Closed.

       CFR Findings: The CFR team confirmed implementation of this recommendation.

Recommendation 14: The Bureau of Resource Management, in coordination with Embassy
Luxembourg, should review the appropriateness of FY 2010 certifications performed by
American officers and report any additional fiscal irregularities as required. (Action: RM, in
coordination with Embassy Luxembourg)

       Pre-CFR Status: Closed.

                                        13
                            SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED



       CFR Findings: The CFR team confirmed implementation of this recommendation.

Recommendation 15: Embassy Luxembourg should contact the Bureau of Resource
Management’s post support unit to determine the cost and feasibility of providing remote
voucher processing and initiate that function if appropriate. (Action: Embassy Luxembourg, in
coordination with RM)

       Pre-CFR Status: Closed.

       CFR Findings: The CFR team confirmed implementation of this recommendation.

Recommendation 16: Embassy Luxembourg should establish a budget committee to oversee the
International Cooperative Administrative Support Services council budget process. (Action:
Embassy Luxembourg)

       Pre-CFR Status: Closed.

       CFR Findings: The CFR team confirmed implementation of this recommendation.

Recommendation 17: Embassy Luxembourg should post on its internal Web site all information
contained in the mission’s welcome packet, including a management notice outlining procedures
for obtaining value-added tax reimbursements and for establishing local bank accounts. (Action:
Embassy Luxembourg)

       Pre-CFR Status: Closed.

       CFR Findings: The CFR team confirmed implementation of this recommendation.

Recommendation 18: Embassy Luxembourg should establish a procedure to adhere to its local
compensation plan so that local employees are compensated for overtime work that has been
approved in advance. (Action: Embassy Luxembourg)

       Pre-CFR Status: Closed.

       CFR Findings: The CFR team confirmed implementation of this recommendation.

Recommendation 19: The Office of the Legal Adviser, in coordination with the Bureau of
Human Resources, should advise Embassy Luxembourg on whether to implement the
Government of Luxembourg’s decision regarding a value-added tax exemption for local
employees who are not residents or citizens of Luxembourg. (Action: L, in coordination with
DGHR and Embassy Luxembourg)

       Pre-CFR Status: Closed.


                                      14
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



      CFR Findings: The CFR team confirmed acceptable nonimplementation of this
recommendation.

Recommendation 20: Embassy Luxembourg should provide sufficient planning time for the
general services staff to discuss, develop, and implement a reorganization plan for the general
services unit. (Action: Embassy Luxembourg)

       Pre-CFR Status: Closed.

       CFR Findings: The CFR team confirmed implementation of this recommendation.

Recommendation 21: Embassy Luxembourg should install separate, locked areas in the supply
room for expendable supplies and maintenance materials, restrict access to accountable officers,
and conduct regular, unannounced spot checks of the expendable supply inventory. (Action:
Embassy Luxembourg)

       Pre-CFR Status: Closed.

       CFR Findings: The CFR team confirmed implementation of this recommendation.

Recommendation 22: Embassy Luxembourg should stop the practice of using local embassy
staff to escort cleared Embassy Brussels warehouse staff while they are working in the chief of
mission or any other American residence. Such escort duties should be handled by official
residence employees or American residents, respectively. (Action: Embassy Luxembourg)

       Pre-CFR Status: Closed.

       CFR Findings: The CFR team confirmed implementation of this recommendation.

Recommendation 23: Embassy Luxembourg should modify the schedule for the Ambassador’s
driver and use a second driver as needed so that driver work schedules do not exceed 10 hours
per day. (Action: Embassy Luxembourg)

       Pre-CFR Status: Closed.

       CFR Findings: The CFR team confirmed implementation of this recommendation.

Recommendation 24: Embassy Luxembourg should develop and implement a preventive
maintenance program for all office buildings and embassy-owned equipment at the residences.
(Action: Embassy Luxembourg)

       Pre-CFR Status: Closed.

       CFR Findings: The CFR team confirmed implementation of this recommendation.

                                       15
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



Recommendation 25: The Bureau of Overseas Buildings Operations should verify that Embassy
Luxembourg’s sprinkler system works properly, provide instructions on its operation, and train
embassy staff to inspect, test, and maintain the system. (Action: OBO)

       Pre-CFR Status: Closed.

       CFR Findings: The CFR team confirmed implementation of this recommendation.

Recommendation 26: Embassy Luxembourg should develop and implement a program so that
all fire extinguishers in office spaces are checked regularly, all residences have sufficient number
of fire extinguishers and smoke detectors, and employees have their residential extinguishers
checked by the maintenance staff annually. (Action: Embassy Luxembourg)

       Pre-CFR Status: Closed.

       CFR Findings: The CFR team confirmed implementation of this recommendation.

Recommendation 27: Embassy Luxembourg, in coordination with the Bureau of Diplomatic
Security and the Bureau of Overseas Buildings Operations, should modify the existing fire
door’s electronic notification equipment to include an audible alarm at Post One. (Action:
Embassy Luxembourg, in coordination with DS and OBO)

       Pre-CFR Status: Closed.

       CFR Findings: The CFR team confirmed implementation of this recommendation.

Recommendation 28: Embassy Luxembourg, in coordination with the Bureau of Information
Resource Management and the Bureau of Overseas Buildings Operations, should redesign the
information systems center server room to better accommodate all of the unclassified computer
equipment and install the appropriate temperature monitors, fire extinguishers, and emergency
shutoff electrical switch. (Action: Embassy Luxembourg, in coordination with IRM and OBO)

       Pre-CFR Status: Closed.

       CFR Findings: The CFR team confirmed implementation of this recommendation.

Recommendation 29: Embassy Luxembourg should modify or upgrade the existing call system
to better manage telephone calls when no telephone operator is on duty. The enhanced system
should enable callers to reach their party more easily or leave a message in a general voicemail
box for possible followup. (Action: Embassy Luxembourg)

       Pre-CFR Status: Open.

       CFR Findings: The CFR team confirmed implementation of this recommendation.
       Recommendation closed.
                                       16
                           SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED



Recommendation 30: Embassy Luxembourg, in coordination with the Bureau of European and
Eurasian Affairs, should provide the Equal Employment Opportunity counselor with the required
training. (Action: Embassy Luxembourg, in coordination with EUR)

       Pre-CFR Status: Closed.

       CFR Findings: The CFR team confirmed implementation of this recommendation.




                                     17
                         SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED




APPENDIX II: Status of 2011 Inspection Informal
Recommendations
Informal Recommendation 1: Embassy Luxembourg should consider enhancing the oral media
brief with a written product that can be distributed to Washington readers, taking advantage of
English-language summaries that may be available.

       CFR Findings: The CFR team confirmed implementation of this recommendation.
       Recommendation closed.

Informal Recommendation 2: Embassy Luxembourg should request a short visit from a local
employee in a nearby embassy who is experienced in grants management and can train staff and
organize the files.

       CFR Findings: The CFR team confirmed implementation of this recommendation.
       Recommendation closed.

Informal Recommendation 3: Embassy Luxembourg should develop a written training program
for new or backup consular staff that includes local standard operating procedures.

     CFR Findings: The CFR team confirmed implementation of this recommendation.
Recommendation closed.

Informal Recommendation 4: Embassy Luxembourg should update its duty book and
emergency action plan consular contract list and include points of contact at the airport, airlines,
hotels and relevant organizations.

     CFR Findings: The CFR team confirmed implementation of this recommendation.
Recommendation closed.

Informal Recommendation 5: Embassy Luxembourg should prominently display on its home
page any travel alerts or warnings.

     CFR Findings: The CFR team confirmed implementation of this recommendation.
Recommendation closed.

Informal Recommendation 6: Embassy Luxembourg should initiate regular management
meetings, during which missionwide decisions made at country team or other venues that affect
the section are passed on to the appropriate management staff.

     CFR Findings: The CFR team confirmed implementation of this recommendation.
Recommendation closed.


                                        18
                            SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED



Informal Recommendation 7: Embassy Luxembourg should write and issue standard operating
procedures for the management section.

     CFR Findings: The CFR team confirmed implementation of this recommendation.
Recommendation closed.

Informal Recommendation 8: Embassy Luxembourg should revise its housing handbook, lease
agreements, and standard make ready procedures to bring the mission into compliance with
regulations regarding the purchase and installation of television satellites and decoders.

     CFR Findings: The CFR team confirmed implementation of this recommendation.
Recommendation closed.

Informal Recommendation 9: Embassy Luxembourg should request that the Bureau of
Resource Management cashier monitors review the mission’s cash advance to ensure that it is
sufficient and walk the newly promoted management officer through proper cashier verification
procedures.

     CFR Findings: The CFR team confirmed implementation of this recommendation.
Recommendation closed.

Informal Recommendation 10: Embassy Luxembourg should keep minutes of the International
Cooperative Administrative Support Services council meetings and post them on the embassy’s
SharePoint intranet page.

     CFR Findings: The CFR team confirmed implementation of this recommendation.
Recommendation closed.

Informal Recommendation 11: Embassy Luxembourg should issue a missionwide notice or
message outlining the awards that mission employees are eligible to receive.

     CFR Findings: The CFR team confirmed implementation of this recommendation.
Recommendation closed.

Informal Recommendation 12: Embassy Luxembourg should institute procedures so that award
nominations are solicited and ceremonies are held regularly.

     CFR Findings: The CFR team confirmed implementation of this recommendation.
Recommendation closed.

Informal Recommendation 13: Embassy Luxembourg should issue a notice to all supervisors,
including the Ambassador, that outlines the proper procedures for the request and approval of
paid absences.


                                      19
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



     CFR Findings: The CFR team confirmed implementation of this recommendation.
Recommendation closed.

Informal Recommendation 14: Embassy Luxembourg should review its procurement
procedures, including blanket purchase agreements and petty cash purchases, with the goal of
reducing the number of purchase orders processed, and publicize the procurement requirements.

     CFR Findings: The CFR team confirmed implementation of this recommendation.
Recommendation closed.

Informal Recommendations 15: Embassy Luxembourg should consider whether a second
purchase card holder should be designated to expand the use of the card for local purchases.

     CFR Findings: The CFR team confirmed implementation of this recommendation.
Recommendation closed.

Informal Recommendation 16: Embassy Luxembourg should designate in writing the
contracting officer’s representatives for its formal contracts.

     CFR Findings: The CFR team confirmed implementation of this recommendation.
Recommendation closed.

Informal Recommendation 17: Embassy Luxembourg should provide the procurement section
with read-only access to COAST, the Department’s system to provide online accounting and
prepare budget reports.

     CFR Findings: The CFR team confirmed implementation of this recommendation.
Recommendation closed.

Informal Recommendation 18: Embassy Luxembourg should update and reissue its housing
handbook.

     CFR Findings: The CFR team confirmed implementation of this recommendation.
Recommendation closed.

Informal Recommendation 19: Embassy Luxembourg should investigate and, if economically
feasible, begin using the expendable supply contract negotiated by the Bureau of European and
Eurasian Affairs.

     CFR Findings: The CFR team confirmed implementation of this recommendation.
Recommendation closed.

Informal Recommendation 20: Embassy Luxembourg should require that passengers in, and
employees who self-drive, official vehicles complete the Daily Vehicle Use Record after each
trip.
                                       20
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



     CFR Findings: The CFR team confirmed implementation of this recommendation.
Recommendation closed.

Informal Recommendation 21: Embassy Luxembourg should provide user guides and additional
training on E2 Solutions and require that all embassy staff attend.

     CFR Findings: The CFR team confirmed implementation of this recommendation.
Recommendation closed.

Informal Recommendation 22: Embassy Luxembourg should provide the maintenance staff
with an approved storage container to be used for all chemicals required for staff use.

     CFR Findings: The CFR team confirmed implementation of this recommendation.
Recommendation closed.

Informal Recommendation 23: Embassy Luxembourg should, as an interim measure, dedicate
some of its information management resources and staff to assisting with the content
management of the embassy’s Internet and intranet sites.

     CFR Findings: The CFR team confirmed implementation of this recommendation.
Recommendation closed.

Informal Recommendation 24: Embassy Luxembourg should address deficiencies in its Equal
Employment Opportunity program by posting required information, issuing a management
notice on procedures, ensuring front office involvement, and informing and training the Federal
Women’s Program coordinator as needed.

     CFR Findings: The CFR team confirmed implementation of this recommendation.
Recommendation closed.

Informal Recommendation 25: Embassy Luxembourg should appoint and train a local
employee Equal Employment Opportunity liaison.

     CFR Findings: The CFR team confirmed implementation of this recommendation.
Recommendation closed.

Informal Recommendation 26: Embassy Luxembourg should revise its funds control policy to
include ratification procedures and a clearer explanation as to the procurements that would not
require advance approval from contracting and financial management staff.

     CFR Findings: The CFR team confirmed implementation of this recommendation.
Recommendation closed.




                                       21
                           SENSITIVE BUT UNCLASSIFIED
SENSITIVE BUT UNCLASSIFIED




 FRAUD, WASTE, ABUSE,
 OR MISMANAGEMENT
OF FEDERAL PROGRAMS
   HURTS EVERYONE.

          CONTACT THE
  OFFICE OF INSPECTOR GENERAL
             HOTLINE
       TO REPORT ILLEGAL
    OR WASTEFUL ACTIVITIES:


         202-647-3320
         800-409-9926
      oighotline@state.gov
          oig.state.gov

   Office of Inspector General
    U.S. Department of State
         P.O. Box 9778
     Arlington, VA 22219




SENSITIVE BUT UNCLASSIFIED
